                  Mandatory Annual Audit Requirement,
                   Material Purchases Existence and
                          Consumption Audit

                               September 2004

                     Reference Number: 2004-1C-179




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         September 27, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Mandatory Annual Audit Requirement, Material Purchases
                              Existence and Consumption Audit (Audit #20041C0248)


       The Defense Contract Audit Agency (DCAA) performed an audit regarding the
       contractor’s material purchases existence and consumption during the period
       January 1 through June 30, 2004. The purpose of the audit was to test the reliability of
       purchasing records, verify the physical existence of material purchases, and confirm
       whether material purchases were charged to the proper cost objectives.
       The DCAA stated that the audit of material purchases existence and consumption
       disclosed no exceptions. The DCAA indicated the results of the tests performed pertain
       only to evaluating the contractor’s purchase existence and consumption practices. The
       DCAA expressed no opinion on the adequacy of the contractor’s purchasing system
       taken as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
